Nos. 19-431, 19-454

In the Supreme Court of the United States
__________________
LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME,
Petitioner,
v.
PENNSYLVANIA, ET AL., Respondents.
__________________
DONALD J. TRUMP, PRESIDENT
OF THE UNITED STATES, ET AL.,
Petitioners,
v.
PENNSYLVANIA, ET AL., Respondents.
__________________
On Writs of Certiorari to the United States
Court of Appeals for the Third Circuit

__________________
Brief of The Catholic Association Foundation,
Eternal Word Television Network, Inc., and
Religious Sisters of Mercy in Alma, Michigan
as Amici Curiae in Support of Petitioners

__________________
ANDREA PICCIOTTI-BAYER
Counsel of Record
THE CATHOLIC ASSOCIATION
FOUNDATION
3220 N Street NW, Suite 126
Washington, DC 20007
(571) 201-6564
amariepicciotti@gmail.com
Counsel for Amici Curiae
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iii
INTERESTS OF AMICI CURIAE . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

CATHOLICS HISTORICALLY HAVE
CONTRIBUTED TO THE WELFARE OF
THE NEEDY AND VULNERABLE . . . . . . . . 3
a. Pre-Colonial and Colonial America . . . . . . 4
b. Elizabeth Ann Seton . . . . . . . . . . . . . . . . . 6
c. Society of St. Vincent de Paul . . . . . . . . . . 8
d. Katharine Drexel . . . . . . . . . . . . . . . . . . . . 9
e. Frances Cabrini . . . . . . . . . . . . . . . . . . . . 11
f. Knights of Columbus . . . . . . . . . . . . . . . . 13
g. Catholic Charities . . . . . . . . . . . . . . . . . . 15
h. Father Flanagan’s Boys Town . . . . . . . . . 17
i. Dorothy Day and the Catholic Worker
Movement . . . . . . . . . . . . . . . . . . . . . . . . . 18

II.

CATHOLICS IN AMERICA CONTINUE TO
LIVE OUT THEIR FAITH BY CARING FOR
THE WELL-BEING OF OTHERS . . . . . . . . 19
a. Healthcare . . . . . . . . . . . . . . . . . . . . . . . . 20
b. Education . . . . . . . . . . . . . . . . . . . . . . . . . 23

ii
c. Charitable services. . . . . . . . . . . . . . . . . . 28

III.

(i)

Sisters of Life. . . . . . . . . . . . . . . . . 29

(ii)

The Knights of Columbus . . . . . . . 30

THE NEW REGULATIONS RESPECT
CATHOLIC OBJECTIONS TO THE
CONTRACEPTION-COVERAGE MANDATE
AND SHOULD BE UPHELD . . . . . . . . . . . . 33

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

iii
TABLE OF AUTHORITIES
CASES
Burwell v. Hobby Lobby Stores,
573 U.S. 682 (2014). . . . . . . . . . . . . . . . . . . . 34, 35
Thomas v. Review Bd. of Indiana Employment
Security Div.,
450 U.S. 707 (1981). . . . . . . . . . . . . . . . . . . . . . . 35
Zubik v. Burwell,
136 S. Ct. 1557 (2016). . . . . . . . . . . . . . . . 3, 33, 37
STATUTES
78 Reg. 39,870 (July 2, 2013). . . . . . . . . . . . . . . . . . 33
83 Fed. Reg. 57,536 (Nov. 15, 2018) . . . . . . . . . . . . 33
Religious Freedom and Restoration Act (“RFRA”),
42 U.S.C. 2000bb et seq. . . . . . . . . . . . . . . . . . . . . 3
U.S. Dep’t of Health and Human Servs., Religious
Exemptions and Accommodations for Coverage
of Certain Preventive Services Under the
Affordable Care Act, 83 Fed. Reg. 57536
(Jan. 14, 2019). . . . . . . . . . . . . . . . . . . . . . . . . . . 34
OTHER AUTHORITIES
AZ

Quotes, Elizabeth Ann Seton Quotes,
https://www.azquotes.com/author/25114Elizabeth_Ann_Seton . . . . . . . . . . . . . . . . . . . . . . 7

iv
Anna Maria Barry-Jester & Amelia ThomsonDeVeaux, “How Catholic Bishops Are Shaping
Health Care in Rural America,” FiveThirtyEight
(Jul. 25, 2018), https://fivethirtyeight.com/
features/how-catholic-bishops-are-shapinghealth-care-in-rural-america/. . . . . . . . . . . . 21, 22
Biography,
Saint
Katharine
Drexel,
https://www.biography.com/religiousfigure/saint-katharine-drexel . . . . . . . . . . . . . . . 11
Boys Town, History, https://www.boystown.org/
Pages/default.aspx . . . . . . . . . . . . . . . . . . . . . . . 18
Boys Town, What We Do: One Mission One Hundred
Years, https://www.boystown.org/what-wedo/Pages/default.aspx . . . . . . . . . . . . . . . . . . . . . 17
Emma Brown, “The Overwhelming Whiteness of
U.S. Private Schools, In Six Maps and Charts,”
Wash. Post (March 29, 2016),
https://www.washingtonpost.com/news/educati
on/wp/2016/03/29/the-overwhelming-whitenessof-u-s-private-schools-in-six-maps-and-charts/ . 25
Catechism of the Catholic Church
(2d ed., 1997) . . . . . . . . . . . . . . . . . . . . . . . 4, 35
Catholic Charities of Baltimore, Our History,
https://www.catholiccharities-md.org/aboutus/our-history/ . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Catholic Charities of the Archdiocese of
Washington, D.C., Health Care,
https://www.catholiccharitiesdc.org/healthcare/
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

v
Catholic Online, Saints and Angels, Katharine
Drexel, https://www.catholic.org/saints/
saint.php?saint_id=193 . . . . . . . . . . . . . . . . . . . 10
Editorial Board, “The Catholic School Difference,”
Wall Street Journal (June 1, 2018),
https://www.wsj.com/articles/the-catholic-schooldifference-1527894168 . . . . . . . . . . . . . . . . . . . . 28
Jongyeon Ee, Gary Orfield & Jennifer Teitell,
“Private Schools in American Education A Small
Sector Still Lagging in Diversity (Working
Paper)” University of California at Los Angeles,
Civil Rights Project (March 5,
2018), https://files.eric.ed.gov/fulltext/ED58144
1.pdf . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25, 26
Melanie Evans, “Catholic Hospitals Hear Pope
Francis’ Call to Help the Poor,” Modern
Healthcare (September 24, 2015),
https://www.modernhealthcare.com/article/201
50924/NEWS/150929924/catholic-hospitals-hearpope-francis-call-to-help-the-poor . . . . . . . . . . . 21
Fleming, D. J., Lavertu, S., & Crawford, W. (2018)
High School Options and Post-Secondary
Student Success: The Catholic School Advantage,
Journal
of
Cath.
Educ.,
21
(2), https://files.eric.ed.gov/fulltext/EJ1182406.
pdf . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

vi
Lilly Folwer, “Can Catholic Hospitals Continue to
Serve the Poor? One Program Tries,” Wash. Post
(Mar. 16, 2016), https://www.washingtonpost.
com/national/religion/can-catholic-hospitalscontinue-to-serve-the-poor-one-programtries/2015/03/16/3404e964-cbfe-11e4-87304f473416e759_story.html . . . . . . . . . . . . . . . . . . 20
Franciscan Media, Saint Katharine Drexel,
https:// w ww . fra nci sca nm edi a. org / sai nt katharine-drexel/ . . . . . . . . . . . . . . . . . . . . . . . . 11
Sean D. Hamill, “For-Profit Hospitals Provide Less
Charity Care,” Pittsburgh Post-Gazette (Sept. 4,
2016), https://www.post-gazette.com/news/
health/2016/09/04/For-profit-hospitals-providel ess-chari ty-care-counting-charity-careseries/stories/20160505020. . . . . . . . . . . . . . . . . 21
Jack Hansan, “Catholic Charities USA,” Virginia
Commonwealth University Libraries Social
W e l f a r e
H isto ry
P ro j ect,
https://socialwelfare.library.vcu.edu/religious/c
atholic-charities-usa/ . . . . . . . . . . . . . . . . . . . . . 16
Isaiah 58:7, The Didache Bible, Ignatius Press
(2d ed., 1994) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Knights of
Columbus,
Who
We Are,
https://www.kofc.org/en/who-we-are/ourstory/index.html . . . . . . . . . . . . . . . . . . . . . . . . . 30
Knights of Columbus and In Defense of Christians,
“Genocide of Christians in the Middle East”
(March 9, 2016), http://www.stopthechristian
genocide.org/en/resources/Genocide-report.pdf . 31

vii
Jed Kolko, “Where Private School Enrollment Is
Highest and Lowest Across the U.S.,” CityLab
(Aug. 13, 2014), https://www.citylab.com/equity/
2014/08/where-private-school-enrollment-ishighest-and-lowest-across-the-us/375993/ . . . . . 26
Matthew 25:31-46, The Didache Bible, Ignatius
Press (2d ed., 1994) . . . . . . . . . . . . . . . . . . . . . . . . 4
Dr. Maria Mazzenga, The Catholic University of
America, University Libraries, The Archivist’s
Nook: An Apostleship of the Laity – The St.
Vincent de Paul Society (Jan. 14, 2020),
https://www.lib.cua.edu/wordpress/newsevents
/12295/ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 9
Missionary Sisters of the Sacred Heart of Jesus,
Mother Cabrini, https://www.mothercabrini.org/
who-we-are/mother-cabrini/ . . . . . . . . . . 11, 12, 13
Missionary Sisters of the Sacred Heart of Jesus,
What We Do, https://www.mothercabrini.org/
what-we-do/ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
National Catholic Education Association, Schools
and Tuition, https://www.ncea.org/NCEA/
Proclaim/Catholic_School_Data/Schools_and_T
uition.aspx . . . . . . . . . . . . . . . . . . . . . . . . . . 26, 27
National Catholic Education Association, Student
Race and Ethnicity, https://www.ncea.org/NCEA/
P ro cl a i m /Ca t ho lic_S cho o l _
Data/Student_Race_and_Ethnicity/NCEA/Proc
laim/Catholic_School_Data/Student_Race_and
_Ethnicity.aspx?hkey=91e960c7-5147-4706841b-2f5de71c7030 . . . . . . . . . . . . . . . . . . . . . . 28

viii
New Advent Catholic Encyclopedia, John Carroll,
http://www.newadvent.org/cathen/03381b.htm. . 6
Pope Paul VI, Encyclical Humana Vitae (1968) . . . 36
Seton Shrine, Full Biography of St. Elizabeth Ann
Seton, https://setonshrine.org/wpcontent/uploads/2016/03/Full-Biography-of-StElizabeth-Ann-Seton.pdf . . . . . . . . . . . . . . . . . . . 7
Sisters
of
Life,
Why
We
Exist,
http://sistersoflife.flywheelsites.com/who-weare/why-we-exist/ . . . . . . . . . . . . . . . . . . . . . . . . 30
Sojourners, 11 Dorothy Day Quotes in Remembrance
of the Radical, Pacifist Servant of God (Nov. 8,
2017), https://sojo.net/articles/11-dorothy-dayquotes-remembrance-radical-pacifist-servantgod . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Sandhya Somashekhar & Julie Zauzmer, “Report:
1 in 6 Hospital Beds in U.S. is in a Catholic
Institution, Restricting Reproductive Care,”
Wash.
Post
(May
5,
2016),
https://www.washingtonpost.com/news/acts-offaith/wp/2016/05/05/report-1-in-6-hospital-bedsin-u-s-is-in-a-catholic-hospital-restrictingreproductive-care/ . . . . . . . . . . . . . . . . . . . . . . . . 21
Will Stancil, “School Segregation Is Not a Myth,”
The Atlantic (Mar. 14, 2018),
ht tps: / / ww w. t hea t l a nt i c. com / educa t i on/
archive/2018/03/school-segregation-is-not-amyth/555614/ . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

ix
The Christian Century, Stubborn Love and
Inflexible Mercy, https://www.christiancentury.
org/review/books/stubborn-love-and-inflexiblemercy-dorothy-day . . . . . . . . . . . . . . . . . . . . . . . 18
The Famous People, 83 Notable Quotes by Dorothy
Day, the Founder of Catholic Worker Movement,
https://quotes.thefamouspeople.com/dorothy-day1255.php . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
United States Conference of Catholic Bishops,
Catholic Education, http://www.usccb.org/
about/public-affairs/backgrounders/catholiceducation.cfm . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
United States Conference of Catholic Bishops,
Catholic Health Care, Social Services and
Humanitarian Aid, http://www.usccb.org/
about/public-affairs/backgrounders/health-caresocial-service-humanitarian-aid.cfm . . . . . . . . . 22
United States Conference of Catholic Bishops,
Catholic Schools FACT Sheet (2016),
http://www.usccb.org/beliefs-and-teachings/howwe-teach/catholic-education/upload/CatholicSchools-FACT-Sheet-2016.pdf . . . . . . . . . . . 25, 27
United States Conference of Catholic Bishops,
Ethical and Religious Directives for Catholic
Health Care Services (6th ed.),
http://www.usccb.org/about/doctrine/ethical-andreligious-directives/upload/ethical-religiousdirectives-catholic-health-service-sixth-edition2016-06.pdf . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

x
United States Conference of Catholic Bishops,
History of the Catholic Church in the United
States, http://www.usccb.org/about/publicaffairs/backgrounders/history-catholic-churchunited-states.cfm . . . . . . . . . . . . . . . . . . . . . . . 4, 5
United States Conference of Catholic Bishops,
Renewing Our Commitment to Catholic
Elementary and Secondary Schools in the Third
Millennium (2015), http://www.usccb.org/beliefsand-teachings/how-we-teach/catholiceducation/upload/renewing-our-commitment2005.pdf . . . . . . . . . . . . . . . . . . . . . . . . . . 24, 25, 26
United States Conference of Catholic Bishops, Six
Things Everyone Should Know about the HHS
Mandate, http://www.usccb.org/about/publicaffairs/backgrounders/six-things-everyoneshould-know-about-the-hhs-mandate.cfm . . 35, 36
Andrew T. Walther & Maureen Walther, The
Knights of Columbus: An Illustrated History
(2020). . . . . . . . . . . . . . . . 13, 14, 15, 30, 31, 32, 33

1
INTERESTS OF AMICI CURIAE1
The Catholic Association Foundation (“TCA”),
is a lay organization dedicated to being a faithful voice
for Catholics in the public square. TCA frequently
promotes the work of the Church and her faithful in
the media. TCA is also a strong defender of religious
freedom. In pursuit of this mission, TCA has filed
amicus briefs in federal courts and this Court,
including amicus briefs in support of petitioners in
NIFLA v. Becerra, 585 U.S. __ (2018), Espinoza v.
Montana Dept. of Revenue, No. 18-1195, and Fulton v.
City of Philadelphia, No. 19-123 (petition granted).
Eternal Word Television Network, Inc.
(“EWTN”), is a nonprofit public charity located in
Irondale, Alabama. Founded in 1980 by Mother M.
Angelica, EWTN has since become the world’s largest
Catholic media network. EWTN produces and
distributes religious programming on English and
Spanish language channels in all media including
television, radio, and the internet twenty-four hours a
day to more than 300 million homes in 145 countries
and territories. The programming is free, earns no
revenue on distribution, and contains no commercial
advertising. EWTN is an independent charitable
organization, meaning that it is not a formal part or
project of the Catholic Church or any Catholic diocese.
It therefore subsists on its own donations and not on
Church or media distribution revenue. EWTN’s mission
1

Amici state that no counsel for a party authored this brief in
whole or in part and no counsel or party made a monetary
contribution intended to fund the preparation or submission of this
brief. All parties have consented to the filing of this brief.

2
includes a devotion to proclaiming authentic Catholic
teaching, including the Church’s unchanging teaching
on human sexuality and the dignity of human life.
Religious Sisters of Mercy in Alma, Michigan
is a Roman Catholic community of religious women.
The Religious Sisters were established as a distinct
Institute of Pontifical Rite in 1973, but their legacy
traces back to 1827 when now-Venerable Mother
Catherine McAuley opened the first Home of Mercy for
poor girls in Ireland. Today, the Religious Sisters’
commitment to bring the Mercy of God to the
vulnerable includes comprehensive health care,
understood as the care of the entire person – spiritual,
intellectual, physical, and emotional. To advance its
mission, the Religious Sisters established Sacred Heart
Mercy Health Care, which operates a health care clinic
in Alma, Michigan. The sisters work in this clinic and
also teach and work for various dioceses around the
country.
SUMMARY OF ARGUMENT
Amici write to highlight the historic and current
contributions of the Catholic Church and Catholic-run
organizations to the public good in the United States
and to impress upon this Court that they be allowed to
remain a vital part of our nation’s social safety net
without being coerced by the government to violate
their religious beliefs. The story of Catholic charitable
work and community uplift is the American story.
From our founding to the present, American Catholics
have consistently served the poor and vulnerable at
home and abroad. Today, Catholic-run organizations
are the largest non-governmental providers of

3
healthcare, education, and charitable services in our
country. Much as the Little Sisters of the Poor insist on
the right to serve their neighbors consistent with the
teaching of the Church, other Catholic groups serving
the poor and marginalized do so as well. To force them
to do otherwise – to give license to a new kind of official
anti-Catholic bigotry – would make these organizations
Catholic in name only.
This Court can protect these faithful groups’
contribution to the common good by confirming that the
federal government’s recent rules exempting the Little
Sisters of the Poor and other religious nonprofit
organizations that object to the Affordable Care Act’s
(“ACA”) contraception-coverage mandate heed this
Court’s directive in Zubik v. Burwell. 136 S. Ct. 1557
(2016). The new rules are a proper exercise of the
government’s authority under the Religious Freedom
and Restoration Act (“RFRA”), 42 U.S.C. 2000bb et seq,
and consistent with the American tradition of religious
liberty and service to our nation’s needy and
vulnerable.
ARGUMENT
I.

CATHOLICS
HISTORICALLY
HAVE
CONTRIBUTED TO THE WELFARE OF
THE NEEDY AND VULNERABLE

In the beginning were the works. In the beginning
of the Catholic presence in America – and, indeed, the
beginning of the American experiment – were the
corporal works of mercy undertaken by American
Catholics to respond to their brothers and sisters in
need. “Is it not to share your bread with the hungry,

4
and bring the homeless poor into your house; when you
see the naked, to cover him, and not to hide yourself
from your own flesh?,” said the Lord in the Old
Testament Book of Isaiah.2 The teachings of Christ
found in the Gospel of St. Matthew set forth the
corporal works of mercy – feed the hungry, give drink
to the thirsty, shelter the homeless, visit the sick, visit
the prisoners, bury the dead and give alms to the poor
– by which Catholics are to respond to the basic needs
of humanity (“Christ in disguise”) in our passage
together through this life.3
From the beginning right up to today, American
Catholics have ministered to the sick and the hungry,
the deprived and downtrodden, the lost and forgotten
of all creeds and colors. It’s not too much to say that the
story of Catholic charitable work and community uplift
is the American story.
a. Pre-Colonial and Colonial America
Catholic good works predate the nation of the
United States. In at least 1606, the Franciscans opened
a school where the city of St. Augustine now stands.4
To the west in New Orleans, the same order opened a

2

Isaiah 58:7, The Didache Bible, Ignatius Press (2d ed., 1994).

3

Matthew 25:31-46, The Didache Bible, Ignatius Press (2d ed.,
1994); see also Catechism of the Catholic Church (“CCC”), ¶ 2447
(2d ed., 1997).
4

United States Conference of Catholic Bishops (“USCCB”), History
o f the Catholic Church in the U ni ted Sta tes,
http://www.usccb.org/about/public-affairs/backgrounders/historycatholic-church-united-states.cfm (last visited Mar. 5, 2020).

5
school for boys in 1718.5 Nine years later, the religious
Ursuline sisters from France established an orphanage,
health facility, and school for street girls there.6 This
was the first formal Catholic charitable organization in
what would become the United States.
Up north in the original colonies, the Jesuits
founded a preparatory school in Newtown, Maryland in
1677. Catholics opened St. Mary’s School in
Philadelphia in 1782, considered to be the first
parochial school in the original United States.7
Any short history of Catholic charitable work must
linger for a moment on Maryland. The colony was
founded by Catholics and was the first colony
established on the principle of religious toleration.
Native-born John Carroll became the first Catholic
bishop in the United States. He worked until his death
in 1815 to establish the Church as a vital member of
the American community and as an active,
unapologetic participant in our public square. As the
first Archbishop of Baltimore, Carrol required in 1782
a portion of all parish revenues be set aside “for the
relief of the poor.”8 In this, he initiated the work of
what would become today’s Catholic Charities USA.

5

Id.

6

Id.

7

Id.

8

Catholic Charities of Baltimore, Our History,
https://www.catholiccharities-md.org/about-us/our-history/ (last
visited Mar. 5, 2020).

6
Under Carroll, Catholic colleges for men were
launched at Georgetown (now Georgetown University),
St. Mary’s in Baltimore, and Mount St. Mary’s in
Emmitsburg. Academies for girls were established at
Visitation in Georgetown, St. Joseph’s at Emmitsburg,
and Nazareth in Bardstown, Kentucky. An active
participant in community affairs, Carroll helped
establish Catholic and non-Catholic schools and, among
other activities, served as the president of Baltimore’s
Female Humane Charity.9
Even President George Washington recognized the
work of Carroll and American Catholics in establishing
their new nation. As Washington wrote in a March
1790 letter to the Catholics of the United States, “I
presume that your fellow-citizens will not forget the
patriotic part which you took in the accomplishment of
their Revolution, and the establishment of your
Government…”10
Carroll was especially supportive of religious
women, but his support of the Sisters of Charity of St.
Joseph and their founder started the work of St.
Elizabeth Ann Seton, America’s first saint.
b. Elizabeth Ann Seton
A New York widow, mother of five, and Catholic
convert, Elizabeth Ann Seton received the sacrament

9

New Advent Catholic Encyclopedia, John Carroll,
http://www.newadvent.org/cathen/03381b.htm (last visited Mar. 5,
2020).
10

Id.

7
of confirmation from John Carroll in 1806.11 Three
years later she took her vows of poverty, chastity, and
obedience. With Carroll’s encouragement, Seton
proceeded to establish the American Sisters of Charity
of St. Joseph’s. Their initial focus was the education of
young girls. Moving to Emmitsburg, Maryland, Mother
Seton established the Saint Joseph’s Academy and Free
School in 1809. This was the first free Catholic school
in the United States, and the creation of parochial
schools became her calling. Mother Seton and her
Sisters of Charity were just getting started. It was the
young nation’s first congregation of religious sisters.
In 1814, Mother Seton was sent to Philadelphia and
established Saint Joseph’s Asylum, the first Catholic
orphanage in the United States. From there it was on
to New York City, where Seton’s sisters cared for the
growing population of orphaned children.
Becoming a vital part of the young nation’s social
safety net was part of Seton’s Catholic calling. The
charitable work of Mother Seton and her Sisters of
Charity and the teachings of the Catholic Church were
indistinguishable and indivisible. As Mother Seton said
of her order’s mission, “The first end I propose in our
daily work is to do the will of God; secondly, to do it in
the manner he wills it; and thirdly to do it because it is
his will.”12
11

Seton Shrine, Full Biography of St. Elizabeth Ann Seton,
https://setonshrine.org/wp-content/uploads/2016/03/Full-Biographyof-St-Elizabeth-Ann-Seton.pdf (last visited Mar. 5, 2020).
12

AZ Quotes, Elizabeth Ann Seton Quotes,
https://www.azquotes.com/author/25114-Elizabeth_Ann_Seton
(last visited Mar. 5, 2020).

8
By the time of her death in 1821, the Sisters of
Charity were in 20 communities. Less than nine years
later they were running orphanages and schools as far
south as New Orleans and as far west as Cincinnati.
They had even opened the first hospital west of the
Mississippi in St. Louis.
Mother Seton’s order either opened or staffed 185
schools, 28 hospitals, and 23 childcare charities to care
for the downtrodden. Today, six congregations of sisters
trace their beginnings to Mother Seton’s original order.
In 1975, Pope John Paul VI celebrated Mother
Seton’s canonization as a saint. Four years later,
recognition of a different kind came when Saint
Elizabeth was inducted into the National Women’s Hall
of Fame in the United States. Her life was clear
testimony that serving God, Church and country in the
public square need not be mutually exclusive.
c. Society of St. Vincent de Paul
In 1845, a decade after French college student
Frederic Ozanam founded the Society of St. Vincent de
Paul when a classmate challenged him to prove his
faith through action, Father John Timon set about
bringing this “apostleship of the laity” to St. Louis.13
Named after the 17th century servant of the poor, the
Society encouraged lay members in parishes to
minister to the less fortunate in their own
communities. Parish chapters (conferences) quickly
13

Dr. Maria Mazzenga, The Catholic University of America,
University Libraries, The Archivist’s Nook: An Apostleship of the
Laity – The St. Vincent de Paul Society (Jan. 14, 2020),
https://www.lib.cua.edu/wordpress/newsevents/12295/

9
spread up, down, and across the United States to other
cities and dioceses.
What began as visiting the poor in their dwellings
and handing out religious literature quickly turned into
projects to meet the concrete needs of downtrodden –
emergency food and clothing deliveries, youth clubs and
camps, residential children’s centers, bureaus to find
homes for foster kids, thrift shops, nursing home visits
and disaster relief.
Still headquartered in St. Louis, the Society of St.
Vincent de Paul has almost 100,000 lay members in the
United States.14 Over their 175-year history of
charitable work, countless Americans in need have
been touched by the lives of these lay people living out
their faith through action.
d. Katharine Drexel
The story of Katharine Drexel, the second
American-born woman to be canonized by the Catholic
Church, begins before she took her vows and set out on
her life’s mission. Her beginnings speak to the
unorganized, uncounted, and unchronicled works of
Catholic charity that have sustained our nation and its
citizens from its founding.
Katharine’s parents were materially and spiritually
wealthy. Each week, her stepmother opened their
Philadelphia home to care for the needy. Her parents
handed out food, clothing, and rental assistance to the
less fortunate. In fact, they regularly sought out women

14

Id.

10
too proud or fearful to approach their home.15 The
Drexel parents’ private charitable work provided a
model for their daughter’s very public work.
Katharine had been touched by the plight of the
Native Americans while visiting the American West in
1884. She wanted to help. After her father’s death,
Katharine contributed funds to help the St. Francis
Mission on South Dakota’s Rosebud Reservation. While
touring Europe in 1887 after her father’s death,
Katharine had a private audience with Pope Leo XIII.
Her goal was to secure missionaries for the Indian
missions that she and her sisters were funding with
their inheritance. The pope told her to consider
becoming a missionary herself.16
In February 1891, Katharine made her first vows as
a religious, and dedicated herself to working for
American Indians and African-Americans. At the same
time, she founded the Sisters of the Blessed Sacrament.
In addition to their regular vows, Drexel’s nuns took a
special vow to work solely for the spiritual and
temporal welfare of Native Americans and blacks.
Mother Drexel and her nuns began by opening a
boarding school in Santa Fe, New Mexico for the
Pueblo Indians. Some 50 missions benefitting Native
American in 16 states, including Tennessee, Arizona,
and Pennsylvania, followed. By 1942, she had also
established a system of black Catholic schools in
15

Catholic Online, Saints and Angels, Katharine Drexel,
https://www.catholic.org/saints/saint.php?saint_id=193 (last visited
Mar. 5, 2020).
16

Id.

11
13 states.17 Outreach to black Americans was met with
harassment at the hands of segregationists, including
the burning of one of her schools.
By the time of her death in 1955, Katharine
Drexel’s Sisters of the Blessed Sacrament had opened
145 missions, 49 elementary schools, and 12 high
schools. Along the way, Mother Drexel had also
founded Xavier University in New Orleans, the nation’s
first Catholic University for African-Americans.18 The
work of Katherine Drexel, now a saint, through the
Sisters of the Blessed Sacrament, continues to this day.
e. Frances Cabrini
Katharine Drexel was not the only woman, or future
saint, whom Pope Leo told to go west. Frances Cabrini
was from a small Italian village near Milan. In her
private audience with the pope, she expressed her wish
for the order of nuns she had founded, the Missionary
Sisters of the Sacred Heart of Jesus, to work in China.
“Not to the East,” the Holy Father told her, “but to the
West.”19
In 1889, Mother Cabrini and her sisters landed in
New York City. Turmoil and poverty marked the city
17

Franciscan Media, Saint Katharine Drexel,
https://www.franciscanmedia.org/saint-katharine-drexel/ (last
visited Mar. 5, 2020).
1 8

Biography,
Saint
Katharine
Drexel,
https://www.biography.com/religious-figure/saint-katharine-drexel
(last visited Mar. 5, 2020).
19

Missionary Sisters of the Sacred Heart of Jesus, Mother
Cabrini, https://www.mothercabrini.org/who-we-are/mothercabrini/ (last visited Mar. 5, 2020).

12
teeming with Italian immigrants navigating a nation in
the throes of industrialization. The first thing the
women did was establish an orphanage, where they
also lived. Next came education classes for the Italian
immigrants, and then a school for the children.
“As I see it,” Cabrini told her sisters, “the mission is
simply this, loving other human beings – wherever in
the world I am – and letting them know that there is a
God who loves them unconditionally, now, as they are.”20
Soon came a hospital and an upstate home for
orphans, and more schools. Cabrini eventually set up
in Chicago, where she died in 1917, but the work took
her and her Missionary Sisters to wherever Italian
immigrants settled to work – in factories and mines,
and near railroads, fields, and vineyards. “In our small
sphere we are helping to solve important social
problems, in every state and every city where our
houses are opened,” she wrote.21
It is fitting that in a nation of immigrants, Mother
Cabrini, an immigrant herself, became the first U.S.
citizen to be canonized a saint by the Catholic Church.
Her work, and that of the Missionary Sisters of the
Sacred Heart of Jesus, continues today in 15 countries
on six continents through education, childcare,

20

Missionary Sisters of the Sacred Heart of Jesus, What We Do,
https://www.mothercabrini.org/what-we-do/ (last visited Mar. 5,
2020).
21

Missionary Sisters of the Sacred Heart of Jesus, Mother Cabrini,
https://www.mothercabrini.org/who-we-are/mother-cabrini/ (last
visited Mar. 5, 2020).

13
eldercare, social work, outreach to women and children,
as well as anti-human trafficking campaigns.22
f. Knights of Columbus
What is today the world’s largest Catholic fraternal
service organization was born in the United States,
started by an Irish-American Catholic priest, and
named in honor of an Italian who became an American
hero. Only in America.
Father Michael J. McGivney wanted to do
something to ensure widows and orphans in his
immigrant community would be cared for when a
family’s breadwinner died. In October 1881, he
convened a group of men from St. Mary’s parish in New
Haven, Connecticut. Six months later came the
incorporation of the Knight of Columbus, named after
the great Italian Catholic explorer in part as a mild
rebuke to that era’s virulent anti-Catholicism.23
What began as an organization to care for widows
and orphans quickly became much more – an
organization dedicated to the principles of charity,
unity, fraternity, and patriotism, a lay organization
whose members engaged in educational, charitable,
religious, social welfare, war relief, and public relief
works.
Parish by parish, diocese by diocese, the
organization had a nation-wide profile within a few
decades. In 1912, the large assembly of Knights at the
22
23

Id.

Andrew T. Walther & Maureen Walther, The Knights of
Columbus: An Illustrated History 2 (2020).

14
dedication of the Christopher Columbus Memorial
Fountain in Washington, D.C. “marked anew the
important position of the Knights of Columbus as an
order in the social fabric of the United States,”
according to a Washington Star reporter.24
What a lay Catholic organization built on serving
Church, family, and community meant to the American
social fabric became clear as the nation met the
challenges of each decade of the 20th century. World
War I saw the Knights providing rest and recreational
facilities (“K of C Huts”) for soldiers of all faiths.25
Inclusiveness extended to color. “[U]nlike the other
social welfare organizations operating in the war,”
noted African-American author and historian Emmet
J. Scott, “[the Knights] never drew the color line.”26
The work of the Knights took a different form after
the Great War. The order offered employment services
like vocational training, night schools, and job search
programs, and placed more than 100,000 returning
soldiers in jobs.27 The Great Depression led to a
renewed commitment to members’ involvement in the
life of their parishes and communities. As the Great
Depression gave way to World War II, the Knights
reached out to soldiers through the National Catholic
Community Service organization, which patterned its

24

Id. at 55.

25

Id.

26

Id. at 63.

27

Id. at 93.

15
program on the Knights’ earlier war relief efforts.28 In
1944, the Knights established a $1 million educational
trust fund to help the children of members killed or
disabled in the war.29
The Knights were committed to inclusiveness from
their founding. Initially, it was a commitment to the
inclusion of Catholics in our nation’s public life, but
that commitment quickly came to include others. In the
1920s, the Knight’s Historical Commission published
works on the contributions of Jewish-, African-, and
German-Americans.30 After World War II and into the
1960s, the Knights of Columbus worked to end racial
discrimination in their own ranks and American
society at large. This took the form of reviewing the
organization’s own admission policies, attending White
House meetings on civil rights, funding conferences on
social justice, and undertaking various initiatives to
combat racial injustice and poverty.31
g. Catholic Charities
The 20th century brought more immigration,
industrialization, and urbanization. Catholic lay
organizations and religious orders did their best to
meet the resulting challenges of poverty, over-crowded
and unsanitary housing, disease, and unsafe working
conditions and minister to those in need. But problems
continued to grow exponentially. Half of the nation’s
28

Id. at 116.

29

Id. at 118.

30

Id. at 81.

31

Id. at 162-65.

16
15 million Catholics lived in poverty in 1910, and
Catholic charitable work was done largely by
volunteers working in isolation.32
That year, some 400 men and women involved in
Catholic charitable works across the country gathered
at Catholic University in Washington, D.C. They
founded the National Conference of Catholic Charities,
known today as Catholic Charities USA, to work
together to the meet the needs of the poor. Not only
would the organization promote better training of
volunteers and professional social workers, but would
also act as the “attorney for the poor” in advocating for
just and compassionate public policies.
Over the next decade, Catholic Charities worked to
replace volunteers with professionals and organize
charitable work within dioceses. The national
organization also pushed bishops and clergy to actively
support the charitable work done in their parish or
diocese. By 1931, 58 separate Catholic Charities
bureaus were operating in dioceses. By 1938, there
were 68.33
As the “attorney for the poor,” Catholic Charities
and its national leadership (most notably executive
director Monsignor John O’Grady) encouraged
lawmakers to pass pension, public housing, and
worker-rights laws. Private charity and public action
32

Jack Hansan, “Catholic Charities USA,” Virginia Commonwealth
University Libraries Social Welfare History Project,
https://socialwelfare.library.vcu.edu/religious/catholic-charitiesusa/
33

Id.

17
on behalf of the less fortunate were never an either/or
proposition for Catholic Charities. They went hand-inhand.
h. Father Flanagan’s Boys Town
What may be, thanks to Hollywood, the best-known
Catholic charity in the United States began on the
streets of Omaha in the first decades of the 20th
century. There, a young priest named Father Edward
J. Flanagan was ministering to the city’s homeless men
and growing discouraged. He developed a life-long
interest in learning what young men needed to avoid a
life on the streets and become responsible, productive
members of society. And so, Father Flanagan’s Boys
Town was born.
In 1917, Flanagan borrowed $90 to rent a boarding
house named Father Flanagan’s Home for Boys that
took in all boys, regardless of race or religion. Four
years later, Father Flanagan purchased a nearby farm
and, over the next decades, built a town with
dormitories, schools, churches, and administrative
buildings. The year after the farm’s purchase, one
hundred boys found a home. Within ten years, that
number grew by the hundreds, and grew to include
girls too. Some one hundred years later, tens of
thousands of lives have been transformed and saved by
what has become one of the nation’s largest nonprofit
childcare agencies.34

34

Boys Town, What We Do: One Mission One Hundred Years,
https://www.boystown.org/what-we-do/Pages/default.aspx (last
visited Mar. 5, 2020).

18
Indeed, Boys Town became such a vital part of
America’s social safety net that President Harry
Truman asked Father Flanagan to travel the globe
after World War II to visit war orphans and advise
foreign leaders how to care for displaced children.35
i. Dorothy Day and the Catholic Worker
Movement
American Catholics are, of course, just as diverse in
their politics as other Americans, and the ideological
flavor of their charitable work can span the political
spectrum. Such was certainly the case of the Catholic
Worker Movement that journalist Dorothy Day helped
launch amid the Great Depression, making her, in the
eyes of Pope Francis, “the most significant, interesting
and influential person in the history of American
Catholicism.”36
Her movement began as a newspaper, The Catholic
Worker, which spotlighted conditions of the poor and
working class through the lens of Catholic social
teaching. The movement quickly became known for its
“houses of hospitality” which welcomed the stranger,
the hungry, and the homeless in both cities and rural
areas.
Day’s simple goal was to change the world and
“make it a little simpler for people to feed, clothe and

35

Boys Town, History, https://www.boystown.org/
Pages/default.aspx (last visited Mar. 5, 2020).
36

The Christian Century, Stubborn Love and Inflexible Mercy,
https://www.christiancentury.org/review/books/stubborn-love-andinflexible-mercy-dorothy-day (last visited Mar. 5, 2020).

19
shelter themselves as God intended them to do.”37 She
famously said, “Everything a baptized person does
every day should be directly or indirectly related to the
Corporal and Spiritual Works of Mercy.”38 No doubt her
words ring just as true for Catholics today as they once
did.
II.

CATHOLICS IN AMERICA CONTINUE TO
LIVE OUT THEIR FAITH BY CARING FOR
THE WELL-BEING OF OTHERS

The past, it turns out, is prologue. Today, Catholicrun organizations are the largest non-governmental
providers of healthcare, education, and charitable
services to the poor and vulnerable in America. The
Catholic Church and Catholic-run entities continue to
play an essential role in American society, meeting the
needs of the most marginalized members of society
when the government cannot and for-profit entities will
not. Pope Francis has repeatedly exhorted that the
Church be a “poor church for the poor.” This Catholic
mission is to serve people regardless of their race, sex,
or creed. The meaning of the word “catholic” is
“universal.” And Catholics’ response to the needs of the
poor and vulnerable reflect this.

37

Sojourners, 11 Dorothy Day Quotes in Remembrance of the
Radical, Pacifist Servant of God (Nov. 8, 2017),
https://sojo.net/articles/11-dorothy-day-quotes-remembranceradical-pacifist-servant-god
38

The Famous People, 83 Notable Quotes by Dorothy Day, the
Founder
of
Catholic
Worker
Movement,
https://quotes.thefamouspeople.com/dorothy-day-1255.php (last
visited Mar. 5, 2020).

20
a. Healthcare
The Catholic Church pioneered our modern-day
hospital system, and Catholic hospitals remain an
integral part of the U.S. healthcare system, especially
in poor and rural communities. The mission of Catholic
healthcare is particularly oriented towards helping the
poor.
In its “Ethical and Religious Directives for Catholic
Healthcare Services,” the United States Conference of
Catholic Bishops places the prioritization of the poor
among the core principles “that guide the Church’s
vision of healthcare.”39 This document, a directive to
Catholic health institutions, states: “In Catholic
institutions, particular attention should be given to the
health care needs of the poor, the uninsured, and the
underinsured.”40
Lack of access to basic healthcare is one of the most
pressing concerns for the poor, and Catholic health
systems are unparalleled in their response, especially
in rural communities. One in six Americans admitted
to a hospital are admitted to a Catholic hospital.41
39

USCCB, Ethical and Religious Directives for Catholic Health
Care Services (6th ed.), http://www.usccb.org/about/doctrine/ethicaland-religious-directives/upload/ethical-religious-directives-catholichealth-service-sixth-edition-2016-06.pdf
40
41

Id.

Lilly Folwer, “Can Catholic Hospitals Continue to Serve the
Poor? One Program Tries,” Wash. Post (Mar. 16, 2016),
https://www.washingtonpost.com/national/religion/can-catholichospitals-continue-to-serve-the-poor-one-programtries/2015/03/16/3404e964-cbfe-11e4-87304f473416e759_story.html

21
Likewise, one of every six acute-care hospital beds are
located at Catholic-owned or affiliated hospitals.42 All
of these systems operate as nonprofits. Their revenues
are used solely for operations and community benefit.
According to a report of audited health systems by
Modern Healthcare, larger Catholic health systems
invest significantly in charity care for the poor – eight
percent of overall budget on average, and as high as
nineteen percent in some systems.43 By contrast, data
from one study the same year found that non-Catholic
hospitals spent around one percent on charity care.44
Many parts of rural America would have no access
to health care were it not for Catholic health systems.
According to one report, as of 2016, 45 communities
relied entirely on one Catholic hospital for their care.45
42

Sandhya Somashekhar & Julie Zauzmer, “Report: 1 in 6 Hospital
Beds in U.S. is in a Catholic Institution, Restricting Reproductive
Care,”
Wash.
Post
(May
5,
2016),
https://www.washingtonpost.com/news/acts-offaith/wp/2016/05/05/report-1-in-6-hospital-beds-in-u-s-is-in-acatholic-hospital-restricting-reproductive-care/
43

Melanie Evans, “Catholic Hospitals Hear Pope Francis’ Call to
Help the Poor,” Modern Healthcare (September 24, 2015),
https://www.modernhealthcare.com/article/20150924/NEWS/150
929924/catholic-hospitals-hear-pope-francis-call-to-help-the-poor
44

Sean D. Hamill, “For-Profit Hospitals Provide Less Charity
Care,” Pittsburgh Post-Gazette (Sept. 4, 2016), https://www.postgazette.com/news/health/2016/09/04/For-profit-hospitals-provideless-charity-care-counting-charity-care-series/stories/20160505020
45

Anna Maria Barry-Jester & Amelia Thomson-DeVeaux, “How
Catholic Bishops Are Shaping Health Care in Rural America,”
F i v e T h i r t y E i g h t
( J u l .
2 5 ,
2 0 1 8 ) ,
https://fivethirtyeight.com/features/how-catholic-bishops-areshaping-health-care-in-rural-america/

22
Further, while the number of hospitals in the United
States has declined in recent years, exacerbating the
access crisis, the number of Catholic hospitals has
increased by 22 percent.46 Catholic health systems have
played an essential role in mitigating a growing crisis
of access to healthcare for poor and rural Americans.
Catholic hospitals assist nearly 90 million
Americans every year. That’s a full quarter of the U.S.
population.47 Yet the work of Catholics in the domain
of healthcare reaches far beyond the hospital bed. The
Catholic healthcare network, for example, includes 438
health centers that care for nearly five million patients
a year.
Catholic Charities devotes an extensive portion of
its resources towards meeting the healthcare needs of
the poorest and most vulnerable Americans. Each year,
Catholic Charities assists 875,000 low-income
Americans – 25 percent of them children48 – with
individual health-related services such as mental
health counseling, dental clinics, or emergency mobile
psychiatric care for poor children.49 Each year, Catholic
Charities helps more than ten thousand adults and ten
46

Id.

47

USCCB, Catholic Health Care, Social Services and
Humanitarian Aid, http://www.usccb.org/about/publicaffairs/backgrounders/health-care-social-service-humanitarianaid.cfm (last visited Mar. 5, 2020).
48
49

Id.

Catholic Charities of the Archdiocese of Washington, D.C.,
Health Care, https://www.catholiccharitiesdc.org/healthcare/ (last
visited Mar. 5, 2020).

23
thousand children enroll in health insurance and
assists tens of thousands of low-income Americans
secure needed prescriptions. Further, this organization
offers addiction counseling to more than 100,000
individuals annually and mental health counseling to
hundreds of thousands more. While lawmakers have
struggled to contain the current addiction crisis, the
Church and its affiliates work tirelessly to help addicts
heal and get back on their feet.
Catholic-affiliated healthcare institutions and
healthcare workers meet a growing need, especially in
poor and rural communities, at a time when access to
care is declining. Oriented around the dignity of the
human person, Catholic hospitals and healthcare
workers daily commit their labors towards the social
good and meeting the healthcare needs of the most
vulnerable members of our nation.
b. Education
Historically, the Catholic Church was at the
forefront of the fight for educational equality in the
United States, a role it continues to play by operating
the largest network of private schools in the nation.
Many of these schools are concentrated in the inner
city or found in rural areas where public schools are
failing. According to recent data, nearly two million
American children attend Catholic schools.50 Many are
not Catholic, but are simply seeking a path out of
poverty that their local schools fail to provide.
50

USCCB, Catholic Education, http://www.usccb.org/about/publicaffairs/backgrounders/catholic-education.cfm (last visited Mar. 5,
2020).

24
The Catholic Church focuses explicitly on using its
vast system of schools to help underserved children. As
the United States Conference of Catholic Bishops
recently stated,
Catholic schools are often the Church’s most
effective contribution to those families who are
poor and disadvantaged, especially in poor innercity neighborhoods and rural areas. Catholic
schools cultivate healthy interaction among the
increasingly diverse populations of our society. In
cities and rural areas, Catholic schools are often
the only opportunity for economically
disadvantaged young people to receive an
education of quality that speaks to the
development of the whole person. As we continue
to address the many and varied needs of our
nation’s new immigrant population, the Church
and its schools are often among the few
institutions providing immigrants and newcomers
with a sense of welcome, dignity, community, and
connection with their spiritual roots.51
Schools across any diocese, according to the 2015
statement, should remain “available and accessible” to
poor and middle-class families facing major economic
challenges.52 Further, “Catholic schools should be

51

USCCB, Renewing Our Commitment to Catholic Elementary and
Secondary Schools in the Third Millennium (2015),
http://www.usccb.org/beliefs-and-teachings/how-we-teach/catholiceducation/upload/renewing-our-commitment-2005.pdf
52

Id.

25
available to students who are not Catholic and who
wish to attend them.”53
Catholic schools are ethnically and socioeconomically diverse and disproportionately benefit
low-income and middle-class children. Minority
students make up approximately 20 percent of the
student population. Of that, 16.1 percent are Hispanic,
7.7 percent are African American, 5.5 are Asian
American, and 5.9 percent are multiracial.54 While
Catholic schools have gotten more diverse, private
schools in general have seen a decline in diversity.55 In
documenting “the overwhelming whiteness of private
schools,” The Washington Post noted that 43 percent of
private school students attend schools that are almost
completely devoid of any minority students.56
The UCLA Civil Rights Project found that white
students are the most isolated group in terms of
intergroup contact, and white students at non-Catholic
53

Id.

54

USCCB, Catholic Schools FACT Sheet (2016),
http://www.usccb.org/beliefs-and-teachings/how-we-teach/catholiceducation/upload/Catholic-Schools-FACT-Sheet-2016.pdf
55

Jongyeon Ee, Gary Orfield & Jennifer Teitell, “Private Schools
in American Education A Small Sector Still Lagging in Diversity
(Working Paper)” University of California at Los Angeles, Civil
R i g h t s
Pro j ect
( Ma r c h
5 ,
2 0 1 8 ) ,
https://files.eric.ed.gov/fulltext/ED581441.pdf
56

Emma Brown, “The Overwhelming Whiteness of U.S. Private
Schools, In Six Maps and Charts,” Wash. Post (March 29, 2016),
https://www.washingtonpost.com/news/education/wp/2016/03/29/
the-overwhelming-whiteness-of-u-s-private-schools-in-six-mapsand-charts/

26
private schools have “the most limited intergroup
experiences.”57 The project also found that white
students are the most likely to attend private school,
and Hispanic students the least likely. Hispanics are
most likely, however, to get a private education at a
Catholic school.58 The diversity of Catholic schools is
important, not because they seek to meet some racial
quotas, but because they strive to fulfill their
expressly-stated calling to be places “of inculturation,
of apprenticeship in a lively dialogue between young
people of different religions and social backgrounds.”59
Diverse learning spaces can help form Americans who
are tolerant and broadminded.
Catholic schools are also oriented towards serving
students from middle- and low-income families. The
tuition at the average Catholic school is less than half
that of the average non-sectarian private school.60
Nearly all Catholic schools offer tuition assistance,
despite operating at a loss. And because the average
per-student cost at public schools is estimated at more
than $11,000 a year, Catholic schools save the nation
an estimated $21 billion dollars annually.61
57

“Private Schools in American Education,” supra note 55.

58

Id.

59

USCCB, Renewing our Commitment, supra note 51.

60

Jed Kolko, “Where Private School Enrollment Is Highest and
Lowest Across the U.S.,” CityLab (Aug. 13, 2014),
https://www.citylab.com/equity/2014/08/where-private-schoolenrollment-is-highest-and-lowest-across-the-us/375993/
61

National Catholic Education Association, Schools and Tuition,
https://www.ncea.org/NCEA/Proclaim/Catholic_School_Data/Sch
ools_and_Tuition.aspx (last visited Mar. 5, 2020).

27
Further, Catholic schools are concentrated in poor,
urban areas; approximately 40 percent of Catholic
schools are in the inner city. This in the face of
“population losses and great financial difficulties in
maintaining them.”62 These schools also go to great
lengths to meet the non-academic needs of their
students. Forty-five percent of Catholic schools, for
example, participate in Federal Nutrition Programs
and serve over 270,000 free meals to students daily.63
Through all this, Catholic schools achieve
significantly better educational outcomes than the
public schools many of these students would be
otherwise forced to attend. According to one study:
“[S]tudents who attended Catholic high schools had the
highest college GPAs, total college graduation rate, and
four-year college graduation rate, and they were more
likely than students who attended other high school
types to have graduated with a STEM degree.”64
Additionally, studies have found that Catholic
schools are also effective at inculcating virtue. As The
Wall Street Journal recently editorialized, not only did
black and Hispanic students who attend urban
Catholic schools show higher achievement and
graduation rates as well as higher college enrollment
than those at nearby public schools, students also
62

Id.

63

USCCB, Catholic Schools FACT Sheet, supra note 54.

64

Fleming, D. J., Lavertu, S., & Crawford, W. (2018) High School
Options and Post-Secondary Student Success: The Catholic School
Advantage, Journal of Cath. Educ., 21 (2),
https://files.eric.ed.gov/fulltext/EJ1182406.pdf

28
exhibit “less disruptive behavior” and “more selfdiscipline.”65 These schools stand out for their success
in “channeling youthful energy into productive selfcontrol.”66
Over the last several decades, racial segregation in
public schools has increased67 while the diversity rate
in Catholic schools has doubled.68 This is because the
mission of Catholic education is to provide an equal
opportunity to all of America’s children to learn and to
thrive. It’s a goal Catholic schools have persisted in
working towards despite great financial headwinds.
Catholic schools have a strong, proven, and unmatched
record of filling the void in the places in society where
education is failing children the most.
c. Charitable services
Catholics continue to respond to the material needs
of the poor and vulnerable both in America and abroad.
Today, Catholic-run charitable groups partner with
local and state governments to address the growing
65

Editorial Board, “The Catholic School Difference,” Wall Street
Journal (June 1, 2018), https://www.wsj.com/articles/the-catholicschool-difference-1527894168
66

Id.

67

Will Stancil, “School Segregation Is Not a Myth,” The Atlantic
(Mar. 14, 2018),
https://www.theatlantic.com/education/
archive/2018/03/school-segregation-is-not-a-myth/555614/
68

National Catholic Education Association, Student Race and
Ethnicity, https://www.ncea.org/NCEA/Proclaim/Catholic_School_
Data/Student_Race_and_Ethnicity/NCEA/Proclaim/Catholic_Sc
hool_Data/Student_Race_and_Ethnicity.aspx?hkey=91e960c75147-4706-841b-2f5de71c7030 (last visited Mar. 5, 2020).

29
foster care crisis and find “forever homes” for children
in need of adoption. They also minister to the needs of
immigrants at our border, run food banks and soup
kitchens, provide needed accompaniment to women
facing pregnancies without sufficient supports, stand
against human trafficking, and respond to the
humanitarian crises that follow natural disasters,
armed conflict, and religious persecution. The
charitable work of two Catholic organizations reflect
how American Catholics today continue to respond to
those in need.
(i)

Sisters of Life

In the same tradition of the religious orders founded
by American women saints like Elizabeth Ann Seton,
Katharine Drexel, and Frances Cabrini, new religious
orders have begun to respond to the great social needs
of our country. One such order is the Sisters of Life.
The Sisters of Life are a Catholic community of women
who profess the three traditional vows of poverty,
chastity, and obedience, but also take on a fourth – a
vow to protect and enhance the sacredness of human
life. Cardinal John O’Connor founded the order in New
York in 1991. The order received formal approbation as
a religious institute in 2004, under Cardinal Edward
Egan.
“This is the charism of the Sisters of Life,”
explained Cardinal O’Connor, “to mother the mothers
of the unborn; to mother the unborn; to mother all
those who are frail, all of those who are vulnerable, all
those who are ill, all of those who are in danger of being
put to death, all those whose lives the world considers

30
useless.”69 The Sisters of Life currently serve in New
York, Bridgeport, Philadelphia, Denver, Washington,
D.C., and Toronto, Canada.70 Their missions include
accompanying women who are vulnerable to abortion,
giving them the support and resources to be able to
choose life for themselves and their children; hosting
weekend retreats; evangelization; outreach to college
students; and helping women who have suffered after
abortion to encounter the mercy and healing of Christ.
(ii)

The Knights of Columbus

The Knights of Columbus, mentioned in Section I,
are similarly bold and unafraid in their commitment to
promoting a “Culture of Life.” Turning word into deed,
the group funds an “Ultrasound Initiative” which has
placed more than 1,000 ultrasound machines at
pregnancy centers across the U.S. and Canada.71 This
is just one thread in the immense tapestry of charitable
actions the world’s largest Catholic fraternal
organization has undertaken around the world.72
“Faith in action” best describes the impressive
nature of the work done by the Knights today. From
2000 to 2018, the Knights donated “$2.9 billion toward
charitable efforts, and provided nearly 1.3 billion hours
6 9

Sisters
of
Life,
Why
We
Exist,
http://sistersoflife.flywheelsites.com/who-we-are/why-we-exist/ (last
visited Mar. 5, 2020).
70

Id.

71

Knights of Columbus: An Illustrated History, supra note 23 at
225.
72

Knights of Columbus, Who We Are, https://www.kofc.org/en/whowe-are/our-story/index.html (last visited Mar. 5, 2020).

31
of voluntary service in support of outreach
initiatives.”73 The group’s “Neighbors Helping
Neighbors” program, for example, promotes local,
parish-based initiatives, encouraging members to direct
their generosity toward their neighbors in need. Their
“Food for Families” program helps ensure families have
adequate access to nutritious food.74 Similarly, the
Knights’ “Coats for Kids” program, launched in 2009,
has already provided almost 500,000 coats to needy
children in the United States and Canada.75
Distribution events here have occurred at military
bases, in Native-American communities, in inner-city
neighborhoods, and through partnerships with local
police and fire departments.
The Knights of Columbus has a unique partnership
with the Special Olympics and helps disabled athletes
train and compete in games around the world.76
Councils assist with all aspects of the program, from
fundraising to feeding the athletes, organizing and
judging events, and providing equipment and awards.
Without the Knights’ support, participants would be
unable to train for the events they love.
The Knights’ impact reaches far beyond America’s
borders. Consistent with their tradition of defending
religious liberty and diversity, the Knights are widely
regarded for their recent work on behalf of persecuted
73

Knights of Columbus: An Illustrated History, supra note 23 at
258.
74

Id. at 246.

75

Id. at 244.

76

Id. at 171, 189.

32
Christians in the Middle East. In 2016, the Knights led
a major advocacy and awareness campaign shedding
light on the atrocities committed by ISIS.77 The
Knights produced a 300-page report on the persecution
of Middle Eastern Christians detailing the execution of
thousands of Christians by ISIS via crucifixions and
beheadings and the mass deportations of Christians
from their ancestral homelands.78 Over 140,000
signatures supported the Knights’ petition to the U.S.
Department of State calling for a formal declaration of
genocide based on the findings of the report.79 These
efforts were decisive in the State Department’s decision
to declare as genocide the treatment of Christians and
other religious minorities in the region and ultimately
helped pass legislation specifically directing U.S.
government relief funds to communities targeted by
ISIS.
For their part, the Knights have distributed more
than $25 million in food, clothing, shelter, education,
and medical care to the persecuted in Iraq, Syria, and
the surrounding region.80 Not one penny was spent on
operating and administration costs. In Iraq alone, their
efforts have supported food programs, new housing
construction, and rental assistance for those displaced,
77

Id. at 252-53.

78

Knights of Columbus and In Defense of Christians, “Genocide of
Christians in the Middle East” (March 9, 2016),
http://www.stopthechristiangenocide.org/en/resources/Genocidereport.pdf
79

Knights of Columbus: An Illustrated History, supra note 23 at
253.
80

Id. at 256.

33
as well as the resettlement of the entire town of
Karamles.81
The valuable work of the Knights of Columbus
shores up the needy within our borders in addition to
reinforcing America’s role in defending the vulnerable
overseas.
III.

THE NEW REGULATIONS RESPECT
CATHOLIC OBJECTIONS TO THE
CONTRACEPTION-COVERAGE MANDATE
AND SHOULD BE UPHELD

Before the ACA’s contraception mandate, a Catholic
employer could follow Catholic teaching by offering
health insurance without coverage for contraceptives,
abortifacients, or sterilization. The mandate, however,
meant that some Catholic employers could not do this
without violating federal regulations and incurring
significant fines. An initial “accommodation”82
continued to burden religious exercise for many
employers like the Little Sisters of the Poor.
This Court in Zubik signaled that such an
“accommodation” failed to satisfactorily address
religious objections.83 Eventually, the government
revised its rules.84 The new rules allow religious
objectors to separate themselves completely from the
mandate. As the Department of Health and Human
81

Id. at 257.

82

See 78 Reg. 39,870 (July 2, 2013).

83

See 136 S.Ct. at 1560.

84

See 83 Fed. Reg. 57,536, 57,540 (Nov. 15, 2018).

34
Services concluded, these new rules “ensure that
proper respect is afforded to sincerely held religious
objections in rules governing this area of health
insurance and coverage, with minimal impact on [the
agency’s] decision to otherwise require contraceptive
coverage.”85
The Third Circuit’s affirmation of a nation-wide
injunction against this sensible accommodation is
grave error. It disregards RFRA’s substantive mandate
in a way similar to that which this Court found
problematic in Burwell v. Hobby Lobby Stores, 573 U.S.
682 (2014).
In Hobby Lobby, closely-held, for-profit corporations
objected to the ACA’s contraception-coverage mandate
based on their belief that providing the mandated
coverage involves the destruction of an embryo in a
way that makes it immoral for them to provide
coverage. This Court held that the mandate as applied
to such entities ran afoul of RFRA since compliance
substantially burdened their exercise of religion and
was not the least restrictive method of implementing
the government’s interest.
In so doing, this Court refused to second-guess the
sincerity of the petitioners’ objection, observing that
“[t]his belief implicates a difficult and important
question of religion and moral philosophy, namely, the
circumstances under which it is wrong for a person to
85

U.S. Dep’t of Health and Human Servs., Religious Exemptions
and Accommodations for Coverage of Certain Preventive Services
Under the Affordable Care Act, 83 Fed. Reg. 57536, 57537 (Jan. 14,
2019).

35
perform an act that is innocent in itself but that has
the effect of enabling or facilitating the commission of
an immoral act by another.”86 This Court also warned
against the government “[a]rrogating the authority to
provide a binding national answer to this religious and
philosophical question.”87 “[I]t is not for us to say that
their religious beliefs are mistaken or unreasonable….
The Court’s ‘narrow function … is to determine’
whether plaintiffs’ asserted religious belief reflects ‘an
honest conviction,’ and there is no dispute that it
does.”88
The Catholic Church teaches that “[h]uman life
must be respected and protected absolutely from the
moment of conception.”89 The intentional destruction of
innocent life, including the unborn, violates the Fifth
Commandment that “Thou shall not kill,” and therefore
constitutes a grave sin.90 Contraception and elective
sterilization are also considered “intrinsically evil.”91
Consistent with Catholic teaching, the country’s
bishops have categorically and consistently counseled
against complying with the ACA’s mandate.92 The
86

Id. at 686.

87

Id. at 724.

88

Id. at 686 (quoting Thomas v. Review Bd. of Indiana
Employment Security Div., 450 U.S. 707, 716 (1981)).
89

CCC, ¶ 2270 (2d ed. 1997).

90

Id. ¶ 1858.

91

Id. ¶ 2370; see also Pope Paul VI, Encyclical Humana Vitae ¶ 14
(1968).
92

USCCB, Six Things Everyone Should Know about the HHS
Mandate,
http://www.usccb.org/about/public-

36
USCCB endorses the new government rules allowing
religious-based exemptions from the mandate.
Based on principles of Catholic moral theology and
confirmed by the teaching authority vested in the
bishops on matters of faith and morals, many Catholic
organizations conclude that complying with the
contraception-coverage mandate involves formal
cooperation in wrongdoing. Not only that, but many
believe compliance amounts to unjustifiable material
cooperation in the same, or would cause scandal in
creating the appearance of complicity in such
wrongdoing.93
The Little Sisters of the Poor, like numerous
Catholic nonprofit organizations, provide valuable care
and assistance to the needy and vulnerable. Their work
continues the long-standing Catholic tradition of
service to others. Much as the Little Sisters of the Poor
respond to the needs of others as an expression of their
faith, they do so consistent with Catholic teaching on
human sexuality and the respect for life. Violating the
teaching of the Church would make them Catholic in
name only.

affairs/backgrounders/six-things-everyone-should-know-about-thehhs-mandate.cfm (last visited Mar. 5, 2020).
93

For a discussion of these concepts, see Briefs of Amicus Curiae
50
Catholic
Theologians
and
Ethicists,
https://www.scotusblog.com/wp-content/uploads/2016/01/50Catholic-Theologians-and-Ethicists1.pdf and Eternal World
Television Network, https://www.scotusblog.com/wpcontent/uploads/2016/01/EWTN-LSP-Amicus.pdf in Zubik v.
Burwell, et al.

37
The new rules respect the honest religious
objections of the Little Sisters of the Poor to comply
with the contraception mandate. The rules are
consistent with this Court’s directive in Zubik.94 They
also model the aspirations of RFRA to protect religious
groups from significant burdens on their religious
exercise by the government.
Respondent states and the lower court advance the
extreme and erroneous view that the federal
government cannot act to secure and protect the
religious freedom of the Little Sisters and nonprofits
with similar convictions. This flawed interpretation
sets up the federal government for a future of
contentious battles with churches and religious groups.
Worse still, it forces religious organizations into
controversies unrelated to the needs of those they aim
to serve. This is turn jeopardizes their invaluable work
helping the most needy members of our society. It’s
time to leave the Little Sisters of the Poor and other
religious organizations in freedom and peace.
CONCLUSION
Amici respectfully submit that the judgment below
be reversed.

94

See 136 S. Ct. at 1560.

38
Respectfully Submitted,
ANDREA PICCIOTTI-BAYER
Counsel of Record
THE CATHOLIC ASSOCIATION FOUNDATION
3220 N Street NW, Suite 126
Washington, DC 20007
(571) 201-6564
amariepicciotti@gmail.com
Counsel for Amici Curiae

